HHS/OIG - Audit,"Review of Transitional Pass-Through Payments At Fletcher Allen Helath Care For The Period August 1, 2000 Through June 30, 2001,"(A-01-01-00551)
Department of Health and Human Services
"Review of Transitional Pass-Through Payments at Fletcher Allen Health Care for the Period August 1, 2000 Through
June 30, 2001," (A-01-01-00551)
December 19, 2001
Complete
Text of Report is available in PDF format (1.98 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether transitional pass-through payments for drugs, biologicals, and medical
devices were reimbursed in accordance with Medicare laws and regulations. Based on our review of payments to the hospital
for 100 sample pass-through items, we determined that the hospital was reimbursed for pass-through drugs, biologicals,
and medical devices in accordance with Medicare laws and regulations. In this respect, we found that all sample items were
eligible for transitional pass-through payments and were billed properly by the hospital.